                                                      National Railroad Passenger Corporation
                                                      Office of Inspector General
                                                      10 G Street N.E.
                                                      Washington, DC 20002




                              Passenger Uses Bad Credit Card
                                   Case Number 08-148
                                     August 17, 2010

A source reported that an Amtrak passenger was traveling by using a non-active credit card over
an 18 month period for $2,565 in lost revenue to Amtrak. Agents substantiated this allegation
through review of documents and interviews. The passenger pled guilty to theft and was ordered
to pay restitution in the amount of $2,565.

.
